                

                
                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     The EPA’s Comments Improve
                     the Environmental Impact
                     Statement Process But
                     Verification of Agreed-Upon
                     Actions Is Needed
                     Report No. 13-P-0352                    August 22, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Laurie Adams
                                                   Daniel Carroll
                                                   Jerri Dorsey
                                                   Gabrielle Fekete
                                                   Steven Weber




Abbreviations

EIS           Environmental Impact Statement
EPA           U.S. Environmental Protection Agency
GPRA          Government Performance and Results Act
NEPA          National Environmental Policy Act
OECA          Office of Enforcement and Compliance Assurance




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0352
                                                                                                         August 22, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              The EPA’s Comments Improve the
The purpose of this review was      Environmental Impact Statement Process But
to determine the impact the
U.S. Environmental Protection
                                    Verification of Agreed-Upon Actions Is Needed
Agency has on final federal
agency Environmental Impact          What We Found
Statements under the National
Environmental Policy Act. As        We found that federal agencies are making changes to their EISs to mitigate or
required by NEPA and Section        eliminate potential environmental risks based on the EPA’s comments. In our
309 of the Clean Air Act, the       review of a sample of EISs and in discussions with federal agencies, we found
EPA reviews EISs that evaluate      that the EPA’s comments directly resulted in positive changes to final EISs. The
the anticipated environmental       eight federal agencies we interviewed all stated that they changed their final EISs
impacts of proposed major           based on the EPA’s comment on their draft EISs.
federal actions. The EPA
reviews hundreds of EISs            The EPA’s goal was to mitigate at least 70 percent of the environmental impacts
annually, involving a wide          identified in its Section 309 reviews of EISs. The EPA tracks progress on its goal
range of federal projects.          by counting the number of substantive comments it makes on EISs and the
Projects covered by EISs            responses (mitigation) from the lead federal agency. For 2012, the EPA reported
include renewable energy,           it exceeded its goal and obtained a 75-percent result for substantive comments
major highway, and oil and gas      addressed by the federal agency. This measure captures the prospective impact
development projects.               of the EPA’s proposed mitigation measures. It does not measure the federal
                                    agency’s actual mitigation actions or outcomes (i.e., impacts), nor is there a
This report addresses the           system in place to do this. The EPA also provided us with “success stories”
following EPA Goals or              evidencing changes made by the federal agencies in response to the EPA’s
Cross-Cutting Strategies:           comments. However noteworthy, these “success stories” do not measure or track
                                    actual mitigation actions implemented or outcomes.
 Taking action on climate
  change and improving air          The EPA has the authority to request and obtain information from lead federal
  quality.                          agencies about agreed-upon mitigation measures. In addition, the EPA’s 1984
 Protecting America’s waters.      Policy and Procedures for the Review of Federal Actions Impacting the
 Cleaning up communities and       Environment states that the EPA can conduct follow-up activities on EPA’s
  advancing sustainable
                                    comments on final EISs in part to ensure that agreed-upon mitigation measures
  development.
                                    are identified in the Record of Decision and are fully implemented. The EPA can
 Ensuring the safety of
                                    more accurately assess and more completely report its results in mitigating
  chemicals and preventing
                                    environmental impacts of federal government projects by following up on
  pollution.
                                    implementation of agreed-upon mitigation measures.
 Expanding the conversation
  on environmentalism.
 Working for environmental          Recommendation and Planned Agency Corrective Action
  justice and children’s health.
                                    We recommend that the EPA direct its NEPA compliance division to conduct,
For further information, contact    on a selected basis, follow-up activities on final EISs including contacting lead
our Office of Congressional and     agencies and documenting the results of these reviews.
Public Affairs at (202) 566-2391.
                                    The agency concurred with our findings and recommendation. The agency
The full report is at:
                                    indicated that it will work to develop a plan by December 1, 2013, to conduct
www.epa.gov/oig/reports/2013/
                                    these follow-up activities on a selected basis and as limited resources allow. The
20130822-13-P-0352.pdf
                                    recommendation is resolved and open with corrective actions ongoing. No further
                                    EPA response to this report is required.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                            August 22, 2013

MEMORANDUM


SUBJECT:	 The EPA’s Comments Improve the Environmental Impact Statement Process
          But Verification of Agreed-Upon Actions Is Needed
          Report No. 13-P-0352

FROM:	         Arthur A. Elkins Jr.

TO:            Susan Bromm, Director
               Office of Federal Activities
               Office of Enforcement and Compliance Assurance


This is a report on the subject evaluation conducted by the Office of Inspector General of the U.S.
Environmental Protection Agency. This report contains findings that describe the problems the OIG has
identified and corrective actions the OIG recommends. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report, because you agreed to the
report’s recommendation and provided a corrective action and completion date that meets the
intent of the recommendation. The recommendation is resolved and open with corrective actions
ongoing.

Should you choose to provide a response to this final report, we will post your response on the OIG’s
public website, along with our memorandum commenting on your response. You should provide your
response as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov; or Acting
Director for Toxics, Chemical Management, and Pollution Prevention Evaluations Jerri Dorsey at
(919) 541-3601 or dorsey.jerri@epa.gov.
The EPA’s Comments Improve the                                                                                                 13-P-0352
Environmental Impact Statement Process But
Verification of Agreed-Upon Actions Is Needed


                                      Table of Contents
   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          2


           The EPA’s Positive Impact on EISs .....................................................................                    3

           Improving Demonstration of Program Results .....................................................                           3


   Conclusions.................................................................................................................       5


   Recommendation ........................................................................................................            5


   Agency Comments and OIG Evaluation ...................................................................                             5


   Status of Recommendation and Potential Monetary Benefits................................                                           6




Appendices
   A       Environmental Impact Statements Reviewed..................................................                                 7


   B       Examples of Lead Agency Response to the EPA’s Comments.....................                                                8


   C       Agency Response ..............................................................................................            10 


   D       Distribution .........................................................................................................    12 

Purpose
            The purpose of this review was to determine the impact the U.S. Environmental
            Protection Agency has on final federal agency Environmental Impact Statements
            prepared under the National Environmental Policy Act. As required by NEPA and
            Section 309 of the Clean Air Act, the EPA’s Office of Federal Activities reviews
            EISs that evaluate the anticipated environmental impacts of proposed major
            federal actions.

Background
            Title I of NEPA contains a Declaration of National Environmental Policy which,
            in part, requires the federal government to use all practicable means to create and
            maintain conditions under which man and nature can exist in productive harmony.
            Two major purposes of the NEPA process are better informed decisions and
            citizen involvement, both of which should lead to implementation of NEPA’s
            policies. NEPA’s procedural requirements apply to all federal agencies in the
            executive branch.

            Section 102 of NEPA requires federal agencies to incorporate environmental
            considerations in their planning and decision-making through a systematic
            interdisciplinary approach. Specifically, all federal agencies are to prepare detailed
            statements including an assessment of the environmental impact of and alternatives
            to major federal actions significantly affecting the environment. These statements
            are commonly referred to as environmental impact statements. After the federal
            agency prepares a draft EIS, a notice of availability is published in the Federal
            Register. Federal agencies and other outside parties have at least 45 days to
            comment on draft EISs. The agency then assesses comments received, revises the
            EIS accordingly, and publishes a final EIS. After a final EIS is prepared and at the
            time of its decision, the federal agency will prepare a public record of its decision
            addressing how the findings of the EIS, including consideration of alternatives,
            were incorporated into the agency’s decision-making process.

            The EPA’s Section 309 NEPA Review Program

            The EPA has a unique responsibility in the NEPA review process. Under
            Section 309 of the Clean Air Act, EPA is required to review and publicly
            comment on the environmental impacts of major federal actions, including actions
            which are the subject of EISs. The EPA is mandated to review and provide
            comment on draft EISs put forth by other federal agencies.

            To achieve this mandate, the EPA has created an environmental review process
            that uses two scales to evaluate draft EISs. One rates the environmental impact of
            the proposed action, and the other rates the adequacy of information presented in
            the draft EIS. The EPA uses these rating scales to comment on the draft EISs from
            federal agencies. The EPA provides these ratings and comments in the form of a


13-P-0352                                                                                      1
            letter, provided within the required timeframe for review. The EPA’s review is
            intended to help federal agencies identify and ultimately avoid or mitigate
            potential adverse impacts from their projects.

Scope and Methodology
            We conducted our work from November 2012 through July 2013 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our work to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            Our review focused on assessing the impact of the EPA’s review and comment on
            federal agency EISs. The team held a series of meetings with the EPA’s Office of
            Federal Activities to gain an understanding of the NEPA process and the EPA’s
            role. We received database access for the agency’s internal EIS tracking system,
            and learned how to use the NEPAssist geographic information system tool. We
            reviewed documents from both the EPA and the Council on Environmental
            Quality, as well as academic literature on the NEPA process.

            To assess the process in practice, we selected 10 of 218 final EISs received by the
            EPA in 2012 (see appendix A). We then reviewed the draft and final comment
            letters to document the ratings, the EPA’s comments, and the lead agency’s
            response to these comments. We documented how potential environmental
            impacts were avoided between draft and final and how/if those can be connected
            back to EPA comment and involvement. As part of this review, we spoke to both
            the EPA lead reviewer and the lead federal agency contact for each sampled EIS.

            We interviewed staff in EPA Regions 3, 4, 6, 8 and 9. We also spoke with
            representatives from the following federal agencies: U.S. Army Corps of
            Engineers, U.S. Marine Corps, Nuclear Regulatory Commission, U.S. National
            Park Service, Bureau of Land Management (two sites), U.S. Forest Service, and
            Bureau of Reclamation.

Results of Review
            The EPA is having a positive impact on final EISs. Federal agencies are generally
            responsive to the EPA’s comments on the draft EIS and make changes to their
            final EISs based on the EPA’s comments and recommendations. The EPA staff
            analyze final EISs and compute the percentage of impacts mitigated as a result of
            the EPA reviews. However, the EPA currently only measures the prospective
            impact of mitigation. The EPA has no formal or systematic process in place to
            determine actual mitigation outcomes and therefore does not conduct follow-up
            actions designed to examine these impacts. The EPA’s Policy and Procedures
            Manual identifies that EPA can conduct, on a selected basis, follow-up on the


13-P-0352                                                                                       2
                  comments and mitigation measures proposed in final EISs. The agency cited
                  limited resources as the barrier to follow-up.

                  The EPA’s Positive Impact on EISs

                  We found that lead federal agencies are making changes to their EISs based on
                  the EPA’s comments on draft EISs. In our review of the EISs and in discussions
                  with lead federal agencies, we found that the EPA’s comments directly resulted in
                  changes to the majority of the final EISs we reviewed. The method by which lead
                  agencies responded varied across project type and agency. For one of our sampled
                  items, there were two substantive changes from the draft to the final based on the
                  EPA’s comment. These included the disclosure of $4.2 million in mitigation
                  funds that will be spent to reduce health impacts in low-income and minority
                  communities and a commitment to a reduced review timeframe for air quality
                  issues. For additional examples of the final EIS changes, see appendix B.

                  The eight federal agencies we interviewed all stated that they changed their final
                  EISs based on the EPA’s comment on their draft EISs. We found a range of
                  changes, from minor enhancements to major project modifications. One lead
                  federal agency indicated a significant change, noting that the project originally
                  proposed would have used large amounts of water. Based on comments from the
                  EPA regarding water use, the project changed to utilizing a process which
                  reduced water need. Interviews with the five regional NEPA offices’ staff found
                  that lead federal agencies use the EPA’s comments effectively to change and
                  improve their EISs. One region provided an example of a new federal facility1
                  which would have encompassed 1,500 acres. In that case, the lead agency’s first
                  choice was undeveloped farm land. According to regional staff, the EPA engaged
                  the agency and had them do an EIS. They ultimately picked the productive reuse
                  of an existing federal facility.

                  Improving Demonstration of Program Results

                  The EPA’s Government Performance and Results Act goal for the NEPA review
                  program is a “… percent of significant impacts identified by EPA during the
                  NEPA review of all major proposed federal actions that will be mitigated.” The
                  EPA’s target was to have 70 percent of the impacts identified in the EPA’s
                  comment letters on the draft EIS mitigated in the agency’s response in the final
                  EIS. Project impacts on human health and the environment, and mitigation
                  measures, include:

                          Choosing a less environmentally damaging alternative.
                          Putting in wetlands mitigation measures.
                          Working with environmental justice communities.2

1
 This case was further outlined in the success story document provided to us by the agency.
2
 According to the Council on Environmental Quality regulations, “Mitigation” includes: (a) avoiding the impact
altogether by not taking a certain action or parts of an action; (b) minimizing impacts by limiting the degree or


13-P-0352                                                                                                           3
                  The program’s GPRA measure is documented with a count of substantive
                  comments (impacts) by the EPA and responses (mitigation) from the lead agency.
                  In assessing its success, the EPA completes a “GPRA Form” for each final EIS
                  reviewed. The EPA’s GPRA measure form outlines EPA’s comments on the draft
                  EIS and final EIS. In addition to the comments, it provides the EPA’s assessment
                  as to actions taken by the lead agency based on EPA comment. For fiscal year
                  2012, EPA reported that it met its performance goals for the NEPA program:
                  “75% of the significant impacts identified in EPA’s comment letters on Draft
                  EISs were avoided, minimized, or compensated for ("mitigated") by the lead
                  agencies in the final EISs published in FY 2012.”

                  The lead federal agency responses to assure mitigation are not validated by EPA.
                  Agency EISs outline the expected benefits and consequences of a proposed
                  project. The mitigation measures included in these documents based on the EPA
                  comment are prospective improvements. The EPA currently has no system in
                  place to determine actual mitigation outcomes (i.e., impacts) based on the EIS
                  comments it provides.

                  According to EPA program staff, they consider their involvement in the EIS
                  process to end with the final EIS. There is only limited assessment of the Records
                  of Decision for these projects, and no verification that the agreed upon mitigation
                  measures occur when the projects go to construction. As a result, the EPA can
                  only project environmental effect from its review and comment. Three of the five
                  regional NEPA leads from our sample said that follow-up on selected projects is
                  needed. They indicated a need for follow-up to ensure that agreed upon mitigation
                  measures are actually put into place.

                  Council on Environmental Quality regulations implementing NEPA provide
                  authority under which EPA can request and obtain information from lead agencies
                  about agreed upon mitigation measures. The regulation states that, upon request,
                  the lead agency shall inform cooperating or commenting agencies on progress in
                  carrying out mitigation measures which they have proposed and which were
                  adopted by the agency making the decision.

                  In addition, the EPA’s 1984 Policy and Procedures for the Review of Federal
                  Actions Impacting the Environment states that the EPA can conduct on a selected
                  basis follow-up activities on comments on final EISs in part to ensure that
                  agreed-upon mitigation measures are identified in the Record of Decision, and
                  that the agreed-upon mitigation measures are fully implemented. The policy also
                  notes that, where resources allow, the EPA is encouraged to assess the level of
                  compliance and effectiveness of federal agency mitigation measures. The lack of

magnitude of the action and its implementation; (c) rectifying the impact by repairing, rehabilitating, or restoring the
affected environment; (d) reducing or eliminating the impact over time by preservation and maintenance operations
during the life of the action; and (e) compensating for the impact by replacing or providing substitute resources or
environments.


13-P-0352                                                                                                             4
            a follow-up system to assess whether mitigation actions were implemented could
            misinform the EPA program performance decisions, and public stakeholder
            assessments about the EPA’s actual impact and outcomes on the NEPA review
            process.

Conclusions
            Although the lead federal agencies’ have responsibility for implementing and
            monitoring agreed-upon mitigation measures, the EPA has the authority to request
            actual data on mitigation progress from lead federal agencies and follow up on the
            results of actions EPA has recommended. The agency cited limited resources as a
            barrier to follow-up. However, resources could be selectively applied to follow up
            on high priority or high impact federal projects to ensure that the agreed-upon
            mitigation measures are actually implemented. As many federal agencies
            resources are constrained at this time, it becomes more vital to ensure that
            commitments made in the NEPA process were acted on. Moreover, the EPA can
            more accurately assess and more completely report its results in mitigating
            environmental impacts of federal government projects by following up on the
            implementation of agreed upon mitigation measures.

Recommendation
            We recommend that the director, Office of Federal Activities, Office of
            Enforcement and Compliance Assurance:

                   1.	 Direct the NEPA Compliance Division to conduct, on a selected basis,
                       follow-up activities on EPA’s proposed mitigation measures adopted
                       by agencies in final EISs, including contacting lead agencies and
                       documenting the results of these reviews.

Agency Comments and OIG Evaluation
            The agency concurred with our findings and recommendation. The agency
            provided a corrective action and estimated completion date that meets the intent
            of the recommendation. The recommendation is resolved and open with corrective
            actions ongoing. No further EPA response to this report is required. The agency’s
            detailed response is provided in Appendix C.




13-P-0352                                                                                       5
                                   Status of Recommendation and
                                     Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                          Subject                        Status1        Action Official           Date      Amount      Amount

     1        5     Direct the NEPA Compliance Division to conduct,         O           Director, Office of     12/1/13
                    on a selected basis, follow-up activities on EPA’s                  Federal Activities,
                    proposed mitigation measures adopted by                        Office of Enforcement and
                    agencies in final EISs, including contacting lead               Compliance Assurance
                    agencies and documenting the results of these
                    reviews.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0352                                                                                                                                          6
                                                                                                 Appendix A

           Environmental Impact Statements Reviewed

  Lead Agency                                         Title                                  Status of Action
 National Park       Hampton National Historic Site, General Management Plan,               Underway
 Service             Implementation, Baltimore County, Maryland
 Department of       US-1 Transportation Improvements, Updated Information, from            No Information
 Transportation      Sandhill Road (NC 1971) to just North of Fox Road (NC 1606) to
                     Martson Road (NC 1001) , Funding, and COE Section 404 Permit,
                     City of Rockingham, Richmond County, North Carolina
 Nuclear             Levy Nuclear Plant Units 1 and 2, Application for Combined Licenses    On Hold (expected
 Regulatory          (COLs) for Construction Permits and Operating Licenses,                to begin in 2015 or
 Commission          (NUREG-1941), Levy County, Florida                                     later)
 Bureau of Land      HB In-Situ Solution Mining Project, Proposal to Extract the Potash     Underway
 Management          Remaining in Inactive Underground Mine, NPDES Permit, Eddy
                     County, New Mexico
 U.S. Forest         Black Fork Salvage Project, Proposal to Treat Timer Harvest,           Not Started
 Service             Prescribe Fire, and Mechanical Thinning, Uinta-Wasatch-Cache
                     National Forest, Summit County, Utah
 Bureau of Land      Sonoran Solar Energy Project, Construction and Operation of a          Not Started
 Management          3756-megawatt (MW) Concentrated Solar Thermal Power Plant and
                     Ancillary Facilities on 3,702 Areas, Right-of-Way Granting, Maricopa
                     County, Arizona
 Bureau of           Upper Truckee River Restoration and Golf Course Reconfiguration        Currently in
 Reclamation         Project, to Restore Natural Geomorphic Ecological Process, Lake        Litigation
                     Tahoe, EL Dorado County, California
 Federal Energy      Eagle Mountain Pumped Storage Hydroelectric Project, Licensing         Currently in
 Regulatory          Application for Eagle Mountain Mine, Near the Town of Desert Center,   Litigation
 Commission          Riverside County, California
 U.S. Army Corps     Berths 302-306 American Presidents Line (APL) Container Terminal       Unknown
 of Engineers        Project, Construction and Operation, US Army COE Section 10 and
                     Section 103 of the Marine Protection Research and Sanctuaries Act,
                     Los Angeles County, California
 Department of       Marine Corps Air Ground Combat Center Project, Land Acquisition        ROD signed
 the Navy            and Airspace Establishment to Support Large-Scale MAGTF Live-Fire      February 2013.
                     and Maneuver Training Facility, Twentynine Palms, San Bernardino       Request FAA to
                     County, California                                                     commence air
                                                                                            space proposal
                                                                                            review. Goal for
                                                                                            FAA to complete by
                                                                                            2014.
Sources: EPA’s internal EIS tracking database and interviews.




13-P-0352                                                                                                         7
                                                                                                     Appendix B

                  Examples of Lead Agency Response
                       to the EPA’s Comments
   Project           Draft EIS Impact                   EPA Comment                            Final EIS
Berths 302-       The EJ analysis and        We recognize the considerable level of    The lead agencies have
306 American      conclusions in the         analysis in the DEIS, but we note that    $4.2 million in mitigation
Presidents        DEIS state that there      the proposed mitigation does not fully    funds that will be spent
Line (APL)        will be                    offset the significant project-related    to reduce health impacts
Container         disproportionately high    impacts to the local community. The       in low-income and
Terminal          and adverse effects on     local community is already heavily        minority communities
Project,          minority and low-          impacted, a condition likely to be        (e.g. schools, housing,
Construction      income populations         exacerbated by the many projects          health clinics, etc.).
and               due to air quality         currently planned at and around the
Operation, US     impacts.                   Port, such as the Corps of Engineers
Army Corps of                                Pier S project, the Southern California
Engineers                                    International Gateway, and perhaps
                                             the expansion of Interstate 710.
Levy Nuclear      As many as 2092.9          The FEIS should provide a detailed        In response to EPA’s
Plant (LNP)       acres of wetlands          mitigation plan and the UMAM scores       on-going concerns
Units 1 and 2,    could be adversely         for the impact and mitigation sites.      (expressed in several
Application for   affected over the          EPA also recommends that a “wetland       review team meetings,
Combined          course of the 60 years     functional analysis” be conducted on      field visits, and in our
Licenses          that groundwater is        the adjacent wetlands and any             DEIS comment letter)
(COLs) for        pumped to support the      adverse wetland impacts due to            that sustained
Construction      LNP project. The DEIS      dewatering be mitigated.                  groundwater pumping
Permits and       also states temporary                                                may adversely impact
Operating         dewatering of wetlands                                               area wetlands, the FEIS
Licenses,         may occur in order to                                                provides an analysis of
(NUREG-           install the blowdown                                                 alternative sources of
1941), Levy       pipelines and other                                                  water to support the LNP
County, FL        structures. The                                                      project in lieu of
                  document also states                                                 groundwater pumping.
                  that this may occur for                                              EPA concurs with the
                  2 to 4 year period.                                                  State of Florida’s
                                                                                       approach.
Berths 302-       In the DEIS, the Port of   The FEIS should commit to reviewing       The Port of Los Angeles
306 American      Los Angeles                new technologies every five years from    agreed to do this every
Presidents        committed to reviewing     the date of the most recent facility      five years.
Line (APL)        the terms of APL's         lease. Additionally, technology reviews
Container         lease every 7 years to     and any resulting recommendations
Terminal,         determine if additional    should be made available to the public.
Construction      air quality
and               improvements could
Operation, US     be made (e.g. lower
Army Corps of     emitting on-dock diesel
Engineers         equipment).




13-P-0352                                                                                                           8
    Project         Draft EIS Impact                  EPA Comment                         Final EIS
 HB In-Situ       The agency indicated    If the analysis determines that          A mitigation plan for
 Solution         that the draft EIS      significant cumulative impacts would     impacts to groundwater
 Mining           involved significant    occur, a mitigation plan for these       resources for water
 Project,         water use.              impacts should be included in the        conservation
 Proposal to                              FEIS. A mitigation plan for impacts to   improvements for the
 Extract the                              groundwater resources could contain      entire potash mining
 Potash                                   water conservation improvements for      process, including mills,
 Remaining in                             the entire potash mining process,        forming partnerships with
 Inactive                                 including mills, forming partnerships    area residents, farmers,
 Underground                              with area residents, farmers, and        and public water
 Mine, NPDES                              public water systems, and partnering     systems, and with city
 Permit, Eddy                             with city and county governments and     and county governments
 County, NM                               the State's water resources              and the State's water
                                          administrator, the New Mexico Office     resources administrator,
                                          of the State Engineer to promulgate      the New Mexico Office of
                                          new or improved water conservation       the State Engineer to
                                          guidance for mining operations.          promulgate new or
                                                                                   improved water
                                                                                   conservation guidance
                                                                                   for mining operations.
Source: OIG EIS tracking database and additional documentation provided by the EPA.


Abbreviations
APL:      American Presidents Line
COL:      Combined Licenses
DEIS:     Draft Environmental Impact Statement
EJ:       Environmental Justice
FEIS:     Final Environmental Impact Statement
LNP:      Levy Nuclear Plant
NPDES: National Pollutant Discharge Elimination System
UMAM:     Uniform Mitigation Assessment Method




13-P-0352                                                                                                      9
                                                                                  Appendix C

                                Agency Response
                                         July 31, 2013

MEMORANDUM


SUBJECT:      Response to Office of Inspector General's (OIG) Draft Report: "The EPA's
              Comments Improve the Environmental Impact Statement Process But Verification
              of Agreed-Upon Actions Is Needed'' (Project No. OPE-FY13-0002)

FROM:         Susan E. Bromm
              Director
              Office of Federal Activities

TO:           Carolyn Copper
              Assistant Inspector General
              Office of Program Evaluation


We reviewed the referenced OIG draft report and appreciate the opportunity to concur on the
finding that EPA is having a positive impact on final Environmental Impact Statements (EISs).
We are pleased to see that your evaluation confirms that our efforts are helping other federal
agencies develop better NEPA analyses.

We also appreciate the opportunity to respond to the recommendation in the draft report:

       We recommend that the director, Office of Federal Activities, Office of Enforcement
       and Compliance Assurance:

       	     Direct the NEPA Compliance Division to conduct, on a selected basis, follow-
              up activities on EPA's proposed mitigation measures adopted by agencies in
              final EISs, including contacting lead agencies and documenting the results of
              these reviews.

While we have concerns regarding the time and resources needed to implement this
recommendation, particularly in light of recent budget cuts, we concur with the recommendation
and will work to develop a plan by December I, 2013 to conduct these follow-up activities on a
selected basis and as limited resources allow.

We would also like to note that while we can follow-up with the Lead Agencies on
recommended mitigation measures, it is the obligation of the Lead Agency to ensure the agreed
upon mitigation measures are fully implemented. EPA has no special role or authority under
NEPA or the Section 309 of the Clean Air Act to ensure that Lead Agencies meet any mitigation


13-P-0352                                                                                        10
commitments outlined in the agency's NEPA Record of Decision (ROD). In that light, we
encourage you to consider working with the Inspector Generals of the Lead Agencies to conduct
an evaluation of whether Lead Agencies are implementing the mitigation measures committed to
in the RODs.

Thank you again for the opportunity to review the draft report.




13-P-0352                                                                                  11
                                                                                Appendix D

                                     Distribution
Office of the Administrator
Director, Office of Federal Activities, Office of Enforcement and Compliance Assurance
Associate Administrator, Office of Policy
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance




13-P-0352                                                                                12
